Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   MEDICARE PART B BILLING

      FOR ULTRASOUND





                    Daniel R. Levinson

                     Inspector General 


                       July 2009

                     OEI-01-08-00100

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
  Δ         E X E C U T I V E                              S U M M A R Y


                    OBJECTIVES
                       To analyze Medicare Part B claims for ultrasound services to:

                       1.	 Describe utilization of ultrasound services in counties with high
                           use of ultrasound and compare it to utilization in other counties.

                       2.	 Identify claims with questionable characteristics.


                    BACKGROUND
                    In 2007, Medicare Part B covered about 17 million ultrasound services
                    in ambulatory settings at a cost of over $2 billion. Previous Office of
                    Inspector General work has raised concerns about the growth in other
                    types of imaging covered under Part B and found that high geographic
                    concentrations of providers or services may indicate weaknesses in
                    Medicare’s program safeguards.

                    We used 2007 Medicare Part B claims data to identify 20 counties
                    that were in the top 1 percent of counties for both average allowed
                    charges for ultrasound per Medicare beneficiary and percentage of
                    beneficiaries who received ultrasound services. Nine of these counties
                    were in Florida; five in New York; three in New Jersey; and one each
                    in Alabama, Michigan, and Texas. We analyzed the claims data to
                    compare use of ultrasound in the high-use counties to that in all other
                    counties. We also examined claims for the presence of a limited set of
                    questionable characteristics, such as suspect combinations of
                    procedures or lack of a service claim from the doctor who ordered the
                    service. We did not assess the medical necessity of services.


                    FINDINGS
                    In 2007, 20 high-use counties accounted for 16 percent of Part B
                    spending on ultrasound despite having only 6 percent of Medicare
                    beneficiaries. The 20 high-use counties accounted for $336 million of
                    the $2.1 billion in Part B spending on ultrasound services. Average
                    per-beneficiary spending on ultrasound in high-use counties was over
                    three times that for beneficiaries in the rest of the country. Twice as
                    many beneficiaries received ultrasound services in high-use counties as
                    in the rest of the country. When these beneficiaries received ultrasound
                    services, they received more services than other beneficiaries receiving
                    ultrasound services in the rest of the country. Finally, the ratio of



OEI-01-08-00100     PA R T B B I L L I N G   FOR   U LT R A S O U N D                       i
    E X E C U T I V E                  S U            M M A R Y


                  ultrasound providers to beneficiaries in high-use counties was over
                  three times that for the rest of the country.
                  Nearly one in five ultrasound claims nationwide had characteristics
                  that raise concerns about whether the claims were appropriate.
                  These 3.2 million claims represent $403 million in Part B charges. The
                  overall rate of ultrasound claims exhibiting one or more questionable
                  characteristics was the same in high-use counties as it was in all other
                  counties. Lack of a service claim by the ordering doctor for treating the
                  beneficiary was the most common of the questionable characteristics.
                  The other characteristics were far less common but more prevalent in
                  high-use counties than other counties.
                  Certain providers billed for a large number of ultrasound claims with
                  questionable characteristics. A group of 672 providers each billed
                  500 or more claims with questionable characteristics. These providers
                  collectively billed over half a million such claims representing over
                  $81 million in Part B charges in 2007.


                  RECOMMENDATIONS
                  Given our findings, we recommend that the Centers for Medicare &
                  Medicaid Services (CMS):
                  Monitor ultrasound claims data to detect questionable claims. This
                  would reduce Medicare’s vulnerability to questionable claims for
                  ultrasound services by enabling CMS to develop claims-processing edits
                  that flag them for review prior to payment.
                  Take action when providers bill for high numbers of questionable
                  claims for ultrasound services. When its monitoring identifies
                  providers that bill for large numbers of questionable claims, CMS should
                  review their claims to ensure that they are legitimate prior to payment.
                  If CMS determines that such providers submit fraudulent claims, it
                  should take steps to revoke their Medicare billing numbers.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  In its written comments to this report, CMS concurred with both of our
                  recommendations and described actions it would take to address them.
                  We did not make any changes to the report based on CMS’s comments.




OEI-01-08-00100   PA R T B B I L L I N G   FOR   U LT R A S O U N D                     ii
Δ   T A B L E                     O F                   C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i



                  INTRODUCTION ........................................... 1



                  FINDINGS ................................................. 7

                             In 2007, 20 high-use counties accounted for 16 percent of 

                             Part B spending on ultrasound despite having only 6 percent of 

                             Medicare beneficiaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7 


                             Nearly one in five ultrasound claims nationwide had 

                             characteristics that raise concern about whether the 

                             claims were appropriate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 


                             Certain providers billed for a large number of ultrasound claims 

                             with questionable characteristics . . . . . . . . . . . . . . . . . . . . . . . . . . 10 



                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                             Agency Comments and Office of Inspector General Response . . . 11 



                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                             A: Data Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                             B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 



                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 





OEI-01-08-00100         PA R T B B I L L I N G   FOR   U LT R A S O U N D
I N T R O D        U C T            I O N
Δ    I N T R O D U C T I O N




                    OBJECTIVES
                       To analyze Medicare Part B claims for ultrasound services to:

                       1.	 Describe utilization of ultrasound services in counties with high
                           use of ultrasound and compare it to utilization in other counties.

                       2.	 Identify claims with questionable characteristics.


                    BACKGROUND
                    In 2007, Medicare spent over $2 billion for about 17 million ultrasound
                    services in doctors’ offices, independent diagnostic testing facilities
                    (IDTF), and other settings covered under Medicare Part B. Previous
                    Office of Inspector General (OIG) work has documented the growth in
                    other types of imaging covered under Part B and raised concerns about
                    the appropriateness of services. 1 Previous OIG work has also found
                    that high geographic concentrations of providers or services may
                    indicate weaknesses in Medicare’s program safeguards. 2
                    Overview of Ultrasound Services
                    Ultrasound imaging uses high-frequency sound waves to enable medical
                    practitioners to view structures inside the body. Ultrasound has
                    numerous clinical applications, including diagnosing conditions in
                    organs and monitoring blood flow in veins and arteries. One example is
                    echocardiography, which enables doctors to view and assess the
                    pumping action of the heart.
                    Ultrasound machines vary in size, imaging capabilities, and the parts of
                    the body that they can examine. Compared to other types of diagnostic
                    imaging machines, which can cost millions of dollars to acquire and
                    install, ultrasound machines are relatively inexpensive. Providers can
                    buy used machines for under $5,000 and roll them into examining
                    rooms on carts.




                        1 OIG, “Growth in Advanced Imaging Covered Under the Medicare Physician Fee
                    Schedule,” OEI-01-06-00260, October 2007.
                        2 OIG, “South Florida Suppliers’ Compliance With Medicare Standards,”
                    OEI-03-07-00150, March 2007. OIG, “Aberrant Billing in South Florida for Beneficiaries
                    With HIV/AIDS,” OEI-09-07-00030, September 2007.



 OEI-01-08-00100    PA R T B B I L L I N G   FOR   U LT R A S O U N D                                        1
I N T R O D        U C T            I O N


                    Payment for Ultrasound Services Under Medicare Part B
                    Medicare covers ultrasound as a diagnostic service under § 1861(s)(3)
                    of the Social Security Act. Medicare generally covers specified
                    ultrasound procedures and will cover additional procedures if they are
                    clinically effective and medically justified. 3
                    Medicare divides imaging services into two components: the technical
                    component, which is the taking of the image, and the professional
                    component, which is the doctor interpreting the image. The technical
                    component of ultrasound services provided in ambulatory settings,
                    such as doctors’ offices and IDTFs, is covered under Part B. The
                    technical component of services provided in institutional settings,
                    such as hospitals and hospital outpatient departments, is covered
                    under Part A. The professional component of ultrasound is always
                    covered under Part B regardless of setting.


                    METHODOLOGY
                    Scope and Data Sources
                    This study is national in scope and focuses on the technical component
                    of fee-for-service ultrasound services billed under Part B in 2007. We
                    focus on the technical component because it is the more costly
                    component of ultrasound services and represents the best way to
                    identify services that were provided entirely in settings covered under
                    Part B. Our data sources are Medicare’s 100-percent physician/supplier
                    National Claims History (NCH) File and the Denominator File from the
                    Medicare Enrollment Data Base. We also consulted with a Medicare
                    Program Safeguard Contractor (PSC). 4
                    Identification of High-Use Counties
                    We first built a national file of all claims for the technical component of
                    ultrasound services billed under Part B in 2007. To do so, we used
                    Berenson-Eggers type of service groups in the range of I3A through I3F
                    as the criteria for selecting claim records from the NCH. 5 This resulted
                    in a file of 41,513,455 ultrasound claims representing $2,750,575,063 in


                      3 Centers for Medicare & Medicaid Services (CMS), “Medicare National Coverage
                    Determinations Manual,” Pub. No. 100-03, ch. 1, § 220.5.
                     4 PSCs are contractors tasked with detecting and deterring fraud and abuse in the
                    Medicare program.
                      5 Berenson-Eggers type of service groups organize Part B procedure codes into clinical
                    categories that aid in analysis of Medicare services and expenditures.



 OEI-01-08-00100    PA R T B B I L L I N G   FOR   U LT R A S O U N D                                          2
I N T R O D        U C T            I O N


                    Medicare-allowed charges. From this file, we used the procedure
                    modifier codes on the claims to identify those for the technical
                    component of ultrasound services. This resulted in a file of
                    18,836,768 claims representing $2,172,037,957 in allowed charges.
                    From this file, we dropped 1,385,229 claims that had zero allowed
                    charges and 423,675 claims with invalid county codes and invalid or
                    missing billing provider identifiers. Together these represented
                    10 percent of ultrasound claims for the technical component of services
                    and $52,617,857, or 2 percent, of allowed charges. Thus our final
                    analysis included 17,027,864 ultrasound claims representing
                    $2,119,420,100 of allowed charges.
                    Next, we summarized the claims by county to generate totals of
                    ultrasound services, allowed charges, and beneficiaries who received
                    ultrasound in each of the 3,239 counties that had ultrasound claims.
                    We used the 2007 Denominator File to obtain a count of
                    fee-for-service beneficiaries in each county as of July 1, 2007. We then
                    merged these files to calculate utilization measures for each county.
                    They included average allowed charges and services per beneficiary and
                    percentage of beneficiaries receiving services.

                    After analyzing this file, we defined high-use counties as those that
                    ranked in the top 1 percent for both of the following measures:

                           •	      average allowed charges for ultrasound per fee-for-service
                                   beneficiary, and

                           •	      the percentage of fee-for-service beneficiaries who received
                                   ultrasound services.

                    Of the 3,239 counties in our analysis, 20 were in the top 1 percent for
                    both of the measures above. Nine of these counties were in Florida; five
                    in New York; three in New Jersey; and one each in Alabama, Michigan,
                    and Texas. See Figure 1 for a map showing the locations of these
                    counties.




 OEI-01-08-00100    PA R T B B I L L I N G   FOR   U LT R A S O U N D                             3
I N T R O D        U C T            I O N 





                    Analysis of Billing Patterns
                    We analyzed our county-level file and our national claims file to
                    describe utilization in the high-use counties and to compare utilization
                    in the high-use counties to that of all other counties. In consultation
                    with a certified fraud examiner and a registered sonographer at a PSC,
                    we identified five characteristics that may indicate questionable
                    ultrasound claims. These characteristics were:

                    •	     The absence of a prior service claim from the doctor who ordered the
                           ultrasound service. We identified the ordering doctor reported on
                           each ultrasound claim and determined whether the doctor had a
                           service claim for treating the beneficiary any time from 2006 up to
                           and including the date of the ultrasound service. Such an absence
                           raises questions as to whether the doctor who reportedly ordered the
                           service ever saw the beneficiary.

                    •	     Questionable use of ultrasound billing codes, such as suspect
                           combinations of ultrasound services billed for the same beneficiary
                           on the same day by the same provider, or specific procedures that
                           are not effective in adults. An example would be duplicative
                           services, such as billing for both a complete abdominal scan and a

 OEI-01-08-00100    PA R T B B I L L I N G   FOR   U LT R A S O U N D                        4
I N T R O D        U C T            I O N


                           scan of an individual organ within the abdominal cavity. This raises
                           concerns of unnecessary or inappropriate use of services.

                    •	     Instances of more than five ultrasound services provided to the same
                           beneficiary on the same day by the same provider. This raises
                           concerns of excessive utilization of services.

                    •	     Beneficiaries who had ultrasound services billed for them by more
                           than five providers in 2007. This raises concerns of misuse of
                           beneficiaries’ Medicare numbers.

                    •	     Missing or invalid data in the claim fields that identify the doctor
                           who ordered the service. This raises questions about whether the
                           service was ordered by a physician treating the beneficiary.

                    We created variables to show the presence or absence of each of these
                    characteristics on each claim. We analyzed them to determine the
                    extent to which ultrasound claims exhibited these characteristics and
                    the extent to which high-use counties and all other counties varied in
                    their prevalence.
                    Limitations
                    This study relies on claims and enrollment data from CMS. We did not
                    independently verify these data.

                    The five characteristics we used to identify questionable claims for
                    ultrasound are not intended to be a comprehensive set of markers for
                    identifying questionable claims. Also, although the presence of such
                    characteristics raises questions about the appropriateness of claims, it
                    does not necessarily mean that such claims are inappropriate or
                    fraudulent. We did not assess compliance of ultrasound claims with
                    Medicare billing requirements or the medical necessity of their
                    underlying services.

                    The Health Insurance Portability and Accountability Act of 1996
                    required issuance of a unique national provider identifier (NPI) to each
                    physician, supplier, and other health care providers. CMS began
                    issuing NPIs on May 23, 2005; however, it was not until May 23, 2008,
                    that CMS required all claims to have an NPI. 6 In the interim, CMS
                    allowed submitted claims to have the NPI only, the Medicare legacy
                    identifier only (i.e., Unique Physician Identification Number), or a
                    combination of an NPI and a Medicare legacy identifier on the claims.


                         6 45 CFR §§ 162.404 and 162.410.




 OEI-01-08-00100    PA R T B B I L L I N G   FOR   U LT R A S O U N D                             5
I N T R O D        U C T            I O N


                    For calculations in this report, we excluded claims that had only an NPI
                    for the billing provider and relied on the legacy numbers to identify the
                    billing provider and ordering doctor. We did so to simplify counting and
                    matching claims by provider identifier. In 2007, less than 2 percent of
                    ultrasound claims had only an NPI for the billing provider and less than
                    1 percent had only an NPI for the ordering doctor.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency (now
                    Council of the Inspectors General on Integrity and Efficiency).




 OEI-01-08-00100    PA R T B B I L L I N G   FOR   U LT R A S O U N D                    6
B   A N N        E R      2 N D                       P A G E
Δ       F I N D I N G S



 In 2007, 20 high-use counties accounted for                  The 20 high-use counties accounted
16 percent of Part B spending on ultrasound                   for $336 million, or 16 percent, of
   despite having only 6 percent of Medicare                  the $2.1 billion of Part B spending
                                                              on ultrasound services. Similarly,
                                beneficiaries
                                                              high-use counties accounted for
                       2.3 million, or 13 percent, of the 17 million ultrasound services that
                       Part B covered in 2007.
                       Average per-beneficiary spending on ultrasound in high-use counties was
                       over three times that for beneficiaries in the rest of the country
                       Part B spent an average of $171 on ultrasound for every beneficiary in
                       the high-use counties compared to $55 in the rest of the country. The
                       average expenditure per individual in high-use counties ranged from
                       $123 in Walker County, Alabama, and Sarasota County, Florida, to
                       $235 in Kings County, New York. See Table A1 in Appendix A for
                       details on usage of ultrasound in the high-use counties.
                       Twice as many beneficiaries received ultrasound services in high-use
                       counties as in the rest of the country
                       In the high-use counties, 36 percent of beneficiaries received ultrasound
                       services in 2007 compared to only 18 percent in the rest of the country.
                       The percentage of beneficiaries who received ultrasound services in
                       high-use counties ranged from 31 percent in Union County, New Jersey,
                       to 42 percent in Miami-Dade County and Charlotte County, Florida.
                       Beneficiaries in high-use counties who received ultrasound services
                       received more services than those in the rest of the country
                       Beneficiaries who received ultrasound services in the high-use counties
                       received an average of 3.2 services compared to 2.5 services for
                       beneficiaries in the rest of the country. The average Part B charge per
                       beneficiary receiving ultrasound services in high-use counties was
                       $474 versus $302 in the rest of the country.
                       The ratio of ultrasound providers to beneficiaries in high-use counties was
                       over three times that for the rest of the country
                       In the high-use counties, the ratio of ultrasound providers to
                       beneficiaries was 1 for every 90 beneficiaries. In the rest of the country,
                       this ratio was 1 provider for every 329 beneficiaries. In both the
                       high-use counties and the rest of the country, over 90 percent of services
                       were billed by doctors and under 10 percent were billed by group
                       providers, such as multispecialty groups or IDTFs.


    OEI-01-08-00100    PA R T B B I L L I N G   FOR   U LT R A S O U N D                      7
 F   I N D I N G        S           





Nearly one in five ultrasound claims nationwide               In 2007, 3.2 million, or 19 percent,
   had characteristics that raise concern about               of Part B ultrasound claims had
           whether the claims were appropriate                one or more of the five
                                                              characteristics we reviewed.
                       These claims accounted for $403 million, or 19 percent, of the $2.1
                       billion that Part B spent on ultrasound services in 2007. The overall
                       rate of ultrasound claims exhibiting one or more of these characteristics
                       was the same in high-use counties as in all other counties. See Tables 1
                       and 2 for descriptions of the characteristics and the number of claims
                       and allowed charges that each characteristic represents.
                       Lack of a service claim by the ordering doctor was the most common of the
                       questionable characteristics overall
                       About 2.8 million, or nearly 17 percent, of Part B ultrasound claims
                       billed in 2007 lacked prior service claims by the ordering doctor. These
                       claims account for nearly 15 percent of claims from high-use counties
                       and 17 percent of claims from all other counties. For these claims, the
                       ordering doctor did not bill Part B for treating the beneficiary, such as
                       for an office visit, any time in 2006 or 2007 up to and including the day
                       of the ultrasound service. These claims account for $356 million in
                       Part B charges. Ultrasound claims without prior service claims raise
                       questions because they suggest that the doctor who ordered the service
                       may never have seen the beneficiary. When an ultrasound claim was
                       accompanied by a service claim, the service claim fell on the same day
                       or within 30 days prior to the ultrasound claim 72 percent of the time.

                       Further, 4 percent of billing providers, or 4,525, lacked preceding or
                       same-day service claims from the ordering doctors for all ultrasound
                       claims they billed. Although most of these providers billed fewer than
                       10 ultrasound claims during the year, 92 providers billed more than
                       100 claims each and 1 billed 5,066 claims. In 2007, these 92 providers
                       collectively billed Part B for 34,673 ultrasound claims, accounting for
                       $4.8 million of allowed charges.
                       The other questionable characteristics were far less common but more
                       prevalent in high-use counties than other counties
                       About half a million, or 3 percent, of Part B ultrasound claims had at
                       least one of the other four characteristics we reviewed, such as
                       questionable use of procedure codes. These claims account for 5 percent
                       of claims from high-use counties compared to 2.7 percent of claims from
                       all other counties. They represent about $63 million in allowed charges.

     OEI-01-08-00100   PA R T B B I L L I N G   FOR   U LT R A S O U N D                       8
  F     I N D I N G                 S


                                   Tables 1 and 2 show the number of Part B ultrasound claims and the
                                   allowed charges that each questionable characteristic represents.


Table 1: P art B Ultrasound Claims With Questionable Characteristics, 2007

                                                                                            High-Use Counties                 All Other Counties


                                                                                         Number of     Percentage of       Number of      Percentage of
 Questionable Characteristic                                                               Claims*          Claims*          Claims*           Claims*


 Claim lacked a prior service claim from the doctor who ordered the                       331,993               14.5%      2,496,149               16.9%
 service

 Claim involved questionable use of ultrasound procedure                                   55,808               2.4%         231,928                1.6%
 codes**

 Claim was for one of more than five services provided to the same                         33,458               1.5%         101,777                0.7%
 beneficiary on the same day by the same provider

 Claim was for a beneficiary who had ultrasound services billed for                        31,024               1.4%          12,966                0.1%
 him or her by more than five providers in 2007

 Claim had missing or invalid data in the field that identifies the                          7,097              0.3%          66,287                0.5%
 doctor who ordered the service


      Unduplicated total                                                                   423,862              18.5%       2,765,452              18.8%

*Claims may have had more than one questionable characteristic.

**See Tables A2 and A3 in Appendix A for details on questionable uses of procedure codes.

Source: OIG analysis of the Medicare National Claims History File, 2007.




Table 2: Allowed Charges for Ultrasound Part B Claims With Questionable Characteristics, 2007

                                                                                            High-Use Counties                 All Other Counties

                                                                                                       Percentage of                      Percentage of
                                                                                           Allowed          Allowed          Allowed           Allowed
 Questionable Characteristic                                                              Charges*         Charges*         Charges*          Charges*


 Claim lacked a prior service claim from the doctor who ordered the                    $49,124,035              14.6%   $306,924,252               17.2%
 service

 Claim involved questionable use of ultrasound procedure                                $7,622,384              2.3%     $27,336,668                1.5%
 codes**

 Claim was for one of more than five services provided to the same                      $5,226,099              1.6%     $14,494,316                0.8%
 beneficiary on the same day by the same provider

 Claim was for a beneficiary who had ultrasound services billed for                     $4,321,776              1.3%      $1,331,304                0.1%
 him or her by more than five providers in 2007

 Claim had missing or invalid data in the field that identifies the                      $846,112               0.3%      $6,495,270                0.4%
 doctor who ordered the service

                                                                                       $62,403,039              18.6%   $340,235,572               19.1%
      Unduplicated total

*Claims may have had more than one questionable characteristic.

**See Tables A2 and A3 in Appendix A for details on questionable uses of procedure codes.

Source: OIG analysis of the Medicare National Claims History File, 2007.





       OEI-01-08-00100             PA R T B B I L L I N G   FOR   U LT R A S O U N D                                                                  9
F   I N D I N G        S           





    Certain providers billed for a large number of             Although most of the
             ultrasound claims with questionable               104,598 providers who billed for
                                                               ultrasound billed 20 or fewer
                                    characteristics
                                                               claims with questionable
                      characteristics, 672 each billed Part B for 500 or more such claims in
                      2007. On average, about half of the ultrasound claims billed in 2007 by
                      these providers had questionable characteristics associated with them.
                      Collectively, these claims accounted for 588,534 of the
                      1,412,459 ultrasound claims they billed to Part B, accounting for
                      $81 million of their $192 million in allowed charges for ultrasound.




    OEI-01-08-00100   PA R T B B I L L I N G   FOR   U LT R A S O U N D                    10
Δ   R E C O M M E N D A T I O N S



                  This report found that Medicare beneficiaries in a small group of
                  counties with the highest use of ultrasound received a disproportionate
                  number of services compared to beneficiaries in other counties. In these
                  counties, more beneficiaries received ultrasound services, and when
                  they received them, they received more services from more providers.
                  These factors drive per-beneficiary Part B spending on ultrasound
                  services that is three times that in other counties.

                  In addition, nearly one in five claims billed for ultrasound services
                  under Medicare Part B in 2007 had characteristics that raise concern
                  about their appropriateness. This rate is consistent when comparing
                  high-use counties to all other counties. Such claims account for
                  3.2 million services and represent $403 million in Part B charges.

                  Given our findings, we recommend that CMS:
                  Monitor Ultrasound Claims Data To Detect Questionable Claims
                  This would reduce Medicare’s vulnerability to questionable claims for
                  ultrasound services by enabling CMS to develop claims-processing edits
                  that flag them for review prior to payment. As part of its analysis, CMS
                  should examine claims for characteristics that are readily identifiable,
                  such as suspect combinations of services for the same beneficiary on the
                  same day, and those that become evident across beneficiaries’ and
                  providers’ claims over time.
                  Take Action When Providers Bill for High Numbers of Questionable Claims
                  for Ultrasound Services
                  When its monitoring identifies providers that bill for large numbers of
                  questionable claims, CMS should review the claims to ensure that they
                  are legitimate prior to payment. If CMS determines that such providers
                  submit fraudulent claims, it should take steps to revoke their Medicare
                  billing numbers. Toward that end, we will provide CMS with
                  information on the providers that we identified as having submitted
                  high numbers of questionable ultrasound claims.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  In its written comments on this report, CMS concurred with both of our
                  recommendations. In response to our recommendations, CMS will
                  share our findings with the Medicare Administrative Contractors for
                  potential additional prepay edits and prepay medical review. CMS also

OEI-01-08-00100   PA R T B B I L L I N G   FOR   U LT R A S O U N D                   11
R   E C O        M M E N D A T                         I O N              S


                      stated that it will forward questionable claims identified by this report
                      to its Recovery Audit Contractors for them to consider in prioritizing
                      areas for postpayment review. Finally, CMS stated that it will share
                      with its program integrity contractors for appropriate followup
                      information on providers that OIG provides.

                      We did not make any changes to the report based on CMS’s comments.
                      For the full text of CMS’s comments, see Appendix B. We have provided
                      CMS with information on the providers that we identified as having
                      submitted high numbers of questionable claims.




    OEI-01-08-00100   PA R T B B I L L I N G   FOR   U LT R A S O U N D                     12
Δ       A P P E N D I X ~ A

Table A-1: Ultrasound Covered Under Part B in High-Use Counties, 2007


                                                                                   Percentage of
                                                                                    Beneficiaries
                                                 Beneficiary                           Receiving    Allowed Charges     Average Charges
  County and State                               Population                          Ultrasound        for Ultrasound     per Beneficiary

  Kings, NY                                              213,049                            35%          $50,067,967                $235

  Miami-Dade, FL                                         182,733                            42%          $42,374,761                $232

  Nassau, NY                                             182,738                            39%          $36,985,652                $202

  Willacy, TX                                                 2,692                         41%             $524,329                $195

  Suffolk, NY                                            189,873                            35%          $34,399,935                $181

  Queens, NY                                             194,434                            33%          $34,250,651                $176

  Richmond, NY                                            41,697                            32%           $6,850,116                $164

  Palm Beach, FL                                         182,177                            40%          $27,980,686                $154

  Charlotte, FL                                           34,351                            42%           $4,961,687                $144

  Union, NJ                                               67,657                            31%           $9,747,483                $144

  Middlesex, NJ                                           94,291                            33%          $13,306,923                $141

  Saint Lucie, FL                                         40,111                            37%           $5,519,626                $138

  Macomb, MI                                             113,766                            33%          $15,543,312                $137

  Broward, FL                                            136,416                            33%          $18,461,816                $135

  De Soto, FL                                                 4,779                         37%             $641,599                $134

  Ocean, NJ                                              114,346                            35%          $15,338,042                $134

  Marion, FL                                              73,343                            39%           $9,748,060                $133

  Indian River, FL                                        30,932                            38%           $3,993,748                $129

  Sarasota, FL                                            97,804                            36%          $12,066,955                $123

  Walker, AL                                              12,636                            35%           $1,558,896                $123
Source: Office of Inspector General (OIG) analysis of the Medicare National Claims History File, 2007.




   OEI-01-08-00100             PA R T B B I L L I N G   FOR   U LT R A S O U N D                                                   13
A P P E N D                  I X - A


Table A-2: Part B Claims Involving Questionable Use of Ultrasound Procedure
Codes, 2007

                                                                                        High-Use Counties         All Other Counties

 Questionable Use                                                                     Number of   Percentage    Number of    Percentage
                                                                                        Claims*    of Claims*     Claims*     of Claims*

  Claim involved a combination of procedures billed for the same
  beneficiary, on the same day, by the same provider:

   76700        Ultrasound, abdominal, real time with image
                documentation, complete
   76705        Ultrasound, abdominal, limited (e.g., single organ,
                quadrant, followup)                                                       911        0.04%        4,554          0.03%

   76830        Ultrasound, transvaginal documentation, complete
   76856        Ultrasound, pelvic (nonobstetric), real time with image
                documentation, complete                                                29,242        1.27%      152,688          1.04%

   93925        Duplex scan of lower extremity arteries or arterial
                bypass grafts; complete bilateral study
   93978        Duplex scan of aorta, inferior vena cava, iliac
                vasculature, or bypass grafts; complete study                          18,826        0.82%       71,926          0.49%

  Claim involved a procedure that is not indicated for use in
  adults:

   76800        Ultrasound, spinal canal and contents                                    6,861       0.30%        2,848          0.02%

      Unduplicated total                                                               55,808        2.43%      231,928          1.57%
*Claims may have involved multiple questionable uses of ultrasound procedure codes.
Source: OIG analysis of the Medicare National Claims History File, 2007.




   OEI-01-08-00100            PA R T B B I L L I N G   FOR   U LT R A S O U N D                                             14
A     P   P E N D           I X ~             A


Table A-3: Allowed Charges for Part B Claims Involving Questionable Use of
Ultrasound Procedure Codes, 2007

                                                                                        High-Use Counties             All Other Counties
                                                                                                 Percentage of                  Percentage of
    Questionable Use                                                                   Allowed        Allowed        Allowed         Allowed
                                                                                       Charges       Charges         Charges        Charges
    Claim involved a combination of procedures billed for the same
    beneficiary, on the same day, by the same provider:
     76700     Ultrasound, abdominal, real time with image
               documentation, complete
     76705     Ultrasound, abdominal, limited (e.g., single organ,
               quadrant, followup)                                                    $107,139        0.03%        $616,248          0.03%

     76830     Ultrasound, transvaginal documentation, complete
     76856     Ultrasound, pelvic (nonobstetric), real time with image
               documentation, complete                                            $3,554,520          1.06%      $15,638,645         0.88%

     93925     Duplex scan of lower extremity arteries or arterial
               bypass grafts; complete bilateral study
     93978     Duplex scan of aorta, inferior vena cava, iliac
               vasculature, or bypass grafts; complete study                      $3,190,638          0.95%      $10,745,783         0.60%


    Claim involved a procedure that is not indicated for use
    in adults:

     76800     Ultrasound, spinal canal and contents                                  $774,107        0.23%        $347,109          0.02%

      Unduplicated total                                                          $7,622,384          2.27%      $27,336,668         1.53%

*Claims may have involved multiple questionable uses of ultrasound procedure codes.
Source: OIG analysis of the Medicare National Claims History File, 2007.




     OEI-01-08-00100          PA R T B B I L L I N G   FOR   U LT R A S O U N D                                                15
 Δ      A P P E N D I X ~ B

Agency Comments




              DEPARTMEf\.lT OF HEALTH & HUMAN SE~ICF.S

                                                                                       200 tncMopIo_ ......_   sw
                                                                                       W8sh1ngtQn. OC 20201




         DATE:          MAY 1 1 2009
        TO:             Daniel R. Levinson
                        Inspector Gcncral

         FROM:
                      C'~nc
                         .. 1.-<-3-<'J}"'~
                                Fn7.7.cTa
                        ACling Administrator

        SUBJECf:        Office of InspcctorGencral (DIG) Draft Report: "Medicare I)art B Billing for
                        Ultrasound" OEI-OI-Og-ooloo


        Thank you for the opportunity to review and comment on the above-referenced DIG draft report.

        Medicare Part B covers ultrasound services provided in ambulatory settings. such as doctors'
        offices and tcsting centers. In 2007. Medicare spent over $2 billion for about 17 million
        ultrasound services. The DIG found, among other things. a high concentr.ltion of ultrasound
        providers and/or services in certain counties, which may indicate areas where Medicare's
        program Sllfegul,rd eITons should be enhanced.

        The OlG reported lhal in 2007. 20 high-use counties accounted for 16 percent of Part B spending
        on ultrawund services despite having only 6 percent of Medicare beneficiaries. The DIG also
        found 3.2 million claims with questionable chnracteristics thaI raise conecrns aboullhc
        appropriatcness ofthcse claims. These claims represent $403 million in Part B charges.
        Furthermore, thc 010 found thaI th~ avcrage per-beneficiary spending on ultrasound serviccs in
        the 20 high-usc counties was more than threc times that for beneficiarics in the rest of the
        country.

        The DIG found that lack of a prior service elaim by thc ordering doctor was the most common
        questionable charactcristic. Other characteristics. such as questionable usc of procedure codes.
        wcre less common bul more prevalent in high-usc counties than other counties. In addition,
        certain providers billed for a large number of ultrasound claims with questionable characteristics.
        such as suspect combinations of ultrasotmd services for the same beneficiary.

        The DIG made the following re<:ommendalions:

        DIG RttGmmt-ndation

        Monitor ultrasound claims data to detect qucstionable claims. This would reduce Medicare's
        vulnerability to questionable claims for ullrasound services by enabling eMS to devclop claims­
        processing edits that nag these qucstionable claims for review prior 10 payment.




    OEI-01-08-00100        PA R T B B I L L I N G   FOR   U LT R A S O U N D                                        16
A   P   P E N D           I X ~            B          





        Page 2 - Danicl R. Levinson



        eMS Rcs(lllllse

        The CMS concurs. CMS will share the OIG findings on questionable ultrasound claims with the
        Medicare Administrative Contraetors (MACs) for potential additional prepay edits and prepay
        medical review. CMS will inform MACs of this issue so that they may consider it when
        prioritizing their medical review strntcgies as part of the CMS effort to protect the Medicare I'art
        D Trust Fund.
                                                                                                                 I
        DIG Recommendation

        Take action when providers bill for high numbers of questionable claims for uhrdSOund services.
        When its monitoring identifies providers that bill for large numbers of questionable claims, CMS
        should revicw thcir claims to ensure that they are legitimate prior to payment. IfCMS
        determines that such providers submit fraudulcnt claims, it should take steps to revoke lheir
        Medicare billing numbers.



        Thc CMS concurs. eMS will take appropriate action to forward the listing of qucstionable
        claims to the Recovery Audit Contractors (RACs) and MACs. The RACs revicw Medicare
        claims on a post payment basis and are tasked with identifying inappropriate payments. While
        CMS docs not mandatc areas for RAC review, we will share lhis infonnation with them. We
        will instruct the MACs to consider lhis ultrasound issue when prioritizing their medical review
        strntcgies.

        lbe DIG has recommended that eMS take action if it determines that ultrasound providers
        submit fraudulent claims. We request the DIG share with CMS the information on those
        providers they believe may have been inappropriately paid. When CMS receives lhis
        information, we will sharc il with our integrity contractors for appropriate action. In some cases,
        the contractors may take administrativc action(s) including placing the provider on prepayment
        review, collccting overpayments, and/or initiating payment suspensions. Additionally, for
        reviews that result in findings of potential fraud, the contractor may develop a case for referral to
        the DIG for additional action.

        The CMS thanks the DIG for its efforts on this rcpon and for highlighting lhis potential
        vulnerability in the Medicare program. eMS is committed to continually reviewing and refining
        our processes to improve the Medicare program, and we will take the findings of this report
        under consideration as we continue to strengthen our oversight efforts to further reduce improper
        payments in the Medicare program. Wc look forward to continuing to work with the DIG tp
        identify and prevent fraud, waste, and abuse in the Medicare program.




    OEI-01-08-00100        PA R T B B I L L I N G   FOR   U LT R A S O U N D                                    17
Δ   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Joyce M. Greenleaf,
                  Regional Inspector General for Evaluation and Inspections in the
                  Boston regional office, and Russell W. Hereford, Deputy Regional
                  Inspector General.

                  Kenneth Price served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Boston regional
                  office who contributed to the report include Rosemary Borck and
                  Carolyn Kenline; other regional and central office staff who contributed
                  include Kevin Farber, Scott Horning, Scott Hutchison, and Kevin
                  Manley.




OEI-01-08-00100   PA R T B B I L L I N G   FOR   U LT R A S O U N D                     18
